TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                          Additional Actions Are Needed to
                        Ensure Readiness to Comply With the
                       American Recovery and Reinvestment
                       Act of 2009 Procurement Requirements



                                              June 28, 2010

                                Reference Number: 2010-11-071




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 3(d) = Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Website       | http://www.tigta.gov
                                          HIGHLIGHTS


ADDITIONAL ACTIONS ARE NEEDED                         requirements. For example, the IRS has not
TO ENSURE READINESS TO COMPLY                         developed written procedures regarding
WITH THE AMERICAN RECOVERY AND                        Recovery Act procurement requirements,
REINVESTMENT ACT OF 2009                              provided formal training for those procuring
                                                      goods and services, or dedicated sufficient
PROCUREMENT REQUIREMENTS
                                                      resources to track and report Recovery Act
                                                      procurements.
Highlights                                            TIGTA reviewed 10 procurements from the
                                                      IRS’ Recovery Act Procurement Plans and
Final Report issued on June 28, 2010                  determined that 2 did not comply with the
                                                      new procurement requirements. In addition,
Highlights of Reference Number: 2010-11-071           the IRS used annual appropriated funds
to the Internal Revenue Service Deputy                instead of Recovery Act funds for 6 of the
Commissioner for Operations Support and               10 procurements. The IRS will continue to
Deputy Commissioner for Services and                  be at risk of noncompliance until
Enforcement.                                          IRS management provides the necessary
                                                      oversight and guidance to IRS program
IMPACT ON TAXPAYERS                                   office and procurement personnel.
The Internal Revenue Service (IRS) received           One aspect of the Recovery Act’s
an appropriation of $203 million in American          transparency and accountability
Recovery and Reinvestment Act of 2009                 requirements does not apply to
(Recovery Act) funds. TIGTA determined                IRS contractors. IRS contractors receiving
that the IRS did not always comply with               Recovery Act funds are not required to
Recovery Act procurement requirements and             report information on Recovery.gov,
used annual appropriated funds instead of             including how the funds were used, any jobs
Recovery Act funds for some procurements.             created or retained, and executive
As a result, approximately $385,000 was not           compensation package information. As a
available for other IRS mission-critical              result, the public will not know how
needs, such as improving taxpayer service             IRS contractors used the $31.9 million in
or addressing the tax gap.                            Recovery Act funds paid out as of
                                                      February 19, 2010.
WHY TIGTA DID THE AUDIT
This audit was initiated to determine the             WHAT TIGTA RECOMMENDED
IRS' eadiness to implement the requirements of the    TIGTA recommended that the IRS strengthen
Recovery Act in planning, awarding, and               controls for Recovery Act procurements,
reporting Recovery Act-funded procurements.           including developing written procedures,
The Recovery Act provided separate funding to         providing training to both program office and
TIGTA to provide oversight of IRS programs.           procurement personnel, and reevaluating the
This audit was conducted using Recovery Act           resources assigned to track and report
funds.                                                IRS Recovery Act procurements.
WHAT TIGTA FOUND                                      The IRS agreed with the recommendation.
                                                      Once the Department of the Treasury issues
The IRS took some proactive steps before
                                                      updated guidance, the IRS plans to issue a new
the Recovery Act was enacted in February 2009
                                                      policy memorandum and meet with
and continued to refine its efforts to plan, award,
                                                      IRS operating divisions and program personnel to
and report Recovery Act procurements
                                                      discuss the policy. The IRS has increased
during the remainder of Calendar Year 2009.
                                                      procurement staffing to provide coverage and
However, it still does not have the necessary
                                                      backup, and it plans to periodically assess
controls in place to ensure future
                                                      staffing assignments to ensure continued
procurements will comply with Recovery Act
                                                      coverage for Recovery Act procurements.
                                                  DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 28, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND ENFORCEMENT


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Additional Actions Are Needed to Ensure
                                Readiness to Comply With the American Recovery and Reinvestment
                                Act of 2009 Procurement Requirements (Audit # 200910124)

 This report presents the results of our review to determine the Internal Revenue Service’s (IRS)
 readiness to implement the requirements of the American Recovery and Reinvestment Act of
 2009 (Recovery Act) 1 in planning, awarding, and reporting Recovery Act-funded procurements.
 This report is consistent with Office of Management and Budget guidance 2 to identify high-risk
 programs and create quicker turnaround reporting. This review is included in our Fiscal Year
 2010 Annual Audit Plan and addresses the major management challenge of Leveraging Data to
 Improve Program Effectiveness and Reduce Costs.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.



 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
 2
     Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (dated April 3, 2009).
                     Additional Actions Are Needed to Ensure Readiness to
                            Comply With the American Recovery and
                     Reinvestment Act of 2009 Procurement Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Additional Actions Are Necessary to Ensure Readiness
          With Recovery Act Procurement Requirements...........................................Page 3
                    Recommendation 1:..........................................................Page 8

          Use of Recovery Act Funds Are Reported to the
          Department of the Treasury ..........................................................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Recovery Act Contract Award Requirements.......................Page 16
          Appendix VI – Recovery Act Recipient Reporting Requirements...............Page 18
          Appendix VII – Management’s Response to the Draft Report.....................Page 19
             Additional Actions Are Needed to Ensure Readiness to
                    Comply With the American Recovery and
             Reinvestment Act of 2009 Procurement Requirements




                             Abbreviations

FAR                    Federal Acquisition Regulation
FedBizOpps             Federal Business Opportunities
FPDS                   Federal Procurement Data System
IRS                    Internal Revenue Service
OMB                    Office of Management and Budget
                   Additional Actions Are Needed to Ensure Readiness to
                          Comply With the American Recovery and
                   Reinvestment Act of 2009 Procurement Requirements




                                              Background

Enacted on February 17, 2009, the American Recovery and Reinvestment Act of 2009
(Recovery Act) 1 contained both spending and tax provisions of $787 billion over 10 years
designed to stimulate the national economy by creating and retaining jobs. Because some of the
tax provisions were effective for the 2009 Filing Season, 2 the Internal Revenue Service (IRS)
began planning for the tax law changes 3 before the Recovery Act was enacted. This involved
identifying the potential new tax law and administrative changes; revising the various tax forms,
instructions, and publications; and reprogramming its computer systems to ensure tax returns
would be accurately processed. In April 2009, the IRS received its appropriation of $203 million
in Recovery Act funds, which were to be used to implement the necessary tax changes as a result
of the Recovery Act provisions.
The Recovery Act also contained unprecedented reporting requirements to enable the public to
track who has received Recovery Act funds and how the funds were used to stimulate the
economy. The Office of Management and Budget (OMB) 4 issued several supplemental guidance
documents 5 that outlined steps for implementing the Recovery Act and also clarified the new
requirements for processing procurements. For example, presolicitation and contract award
notices must be posted on the Federal Business Opportunities (FedBizOpps) 6 system so the
public will be aware of Recovery Act procurement opportunities. In addition, the Department of
the Treasury issued an Acquisition Bulletin 7 on February 19, 2009, as well as informal guidance
to its bureaus and offices on the use and reporting of Recovery Act funds, including a
requirement for Department of the Treasury approval before Recovery Act procurements are
awarded.

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  The period from January 1 through April 15 when most individual tax returns are filed.
3
  The Recovery Act included more than 50 tax law provisions that the IRS is charged with administering. These tax
changes included refundable credits, such as the Making Work Pay and First-Time Homebuyer Credits.
4
  The OMB has the primary responsibility for developing Government-wide rules and procedures to ensure that
funds are awarded and distributed in a prompt and fair manner; uses of funds are transparent to the public; and steps
are taken to mitigate fraud, waste, and abuse.
5
  The OMB issued implementing guidance on February 18, 2009; April 3, 2009; June 22, 2009; and
December 19, 2009.
6
  The FedBizOpps system is a single Government-wide point of entry for Federal Government procurement
opportunities exceeding $25,000. Government buyers are able to publicize their business opportunities by posting
information directly to the FedBizOpps system via the Internet. Through this system, commercial vendors seeking
Federal markets for their products and services can search, monitor, and retrieve opportunities solicited by the entire
Federal contracting community.
7
  The official document the Department of the Treasury uses to issue procurement guidance to its bureaus and
offices.
                                                                                                               Page 1
                   Additional Actions Are Needed to Ensure Readiness to
                          Comply With the American Recovery and
                   Reinvestment Act of 2009 Procurement Requirements



In addition, each Federal agency was required to conduct risk assessments to identify any
potential areas that could adversely affect its implementation of the Recovery Act provisions.
Agencies were also required to develop specific plans for spending their allocated portion of the
Recovery Act funds. The Department of the Treasury required the IRS to submit weekly
Recovery Act procurement plans, program reports, and financial reports 8 on how it is spending
the funds. Federal agencies receiving Recovery Act funds were required to post these reports on
Recovery.gov. 9 The IRS’ Recovery Act procurement plan initially listed 41 procurements with
an estimated total value of $96.7 million. As of August 20, 2009, because of the consolidation
and removal of some of the procurements, there were 32 procurements with an estimated total
value of $83.9 million.
This review was performed at the IRS Office of Procurement in Oxon Hill, Maryland; the
Modernization and Information Technology Services organization and Wage and Investment
Division program offices 10 in New Carrollton, Maryland; and the IRS National Headquarters in
Washington, D.C., during the period September 2009 through February 2010. During our
review, changes to procedures and processes were still being made in accounting for and
reporting on the use of Recovery Act funds and for procuring goods and services under the
Recovery Act. This report reflects the status of the IRS’ readiness to comply with the
Recovery Act requirements for procuring goods and services as of February 2010, when we
completed our fieldwork. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




8
  Agency weekly financial and activity reports outline the amount of Recovery Act funds they have available and
have paid out, the types of awards they have made (contract, grant, or loan), and the specific agency activities for the
week and in the future. Agencies are also required to issue Financial Notification reports that detail the amount of
Recovery Act funds allocated to each State through individual agency programs.
9
  The Recovery Act required the creation of a web site to report data related to Recovery Act spending.
Recovery.gov was established as the United States Government’s official Recovery Act web site.
10
   A program office is the functional organization that needs the good or service provided by the procurement.
                                                                                                               Page 2
                  Additional Actions Are Needed to Ensure Readiness to
                         Comply With the American Recovery and
                  Reinvestment Act of 2009 Procurement Requirements




                                      Results of Review

While the IRS took some proactive steps before the Recovery Act was enacted in February 2009 and
continued to efine its efforts to plan, award, and report Recovery Act procurements during the remainder
of Calendar Year 2009, it still does not have the necessary controls in place to ensure future
procurements will comply with Recovery Act requirements. For example, the IRS has not
developed written procedures regarding Recovery Act procurement requirements, provided
formal training for those procuring goods and services, or dedicated sufficient resources to track
and report Recovery Act procurements. As a result, 2 of the 10 procurements we reviewed did
not comply with the new requirements. The IRS will continue to be at risk of noncompliance
with Recovery Act requirements until IRS management provides the necessary oversight and
guidance to IRS program office and procurement personnel.
In addition, we noted there is one aspect of the Recovery Act’s transparency and accountability
requirements that does not apply to IRS contractors. 11 IRS contractors receiving Recovery Act
funds are not required to report information on Recovery.gov, including how the funds were
used, any jobs created, and executive compensation packages. As a result, the public will not
know how IRS contractors used the $31.9 million in Recovery Act funds paid out as of
February 19, 2010.

Additional Actions Are Necessary to Ensure Readiness With
Recovery Act Procurement Requirements
Because the Recovery Act was enacted after the start of the 2009 Filing Season, the Office of
Procurement had to award several procurements before the new funds were available. The IRS
awarded the procurements using annual appropriated funds 12 and intended to replace them once
Recovery Act funds were available. OMB implementing guidance did not specifically comment
on this practice. The guidance stated that agencies are required to maintain
Recovery Act funds separately from other appropriated funds for tracking and reporting
purposes.

11
   The Recovery Act requires agencies receiving funds under Division A of the Recovery Act to comply with the
transparency requirements for recipient reporting on Recovery.gov. The IRS received funds under Division B of the
Recovery Act (Tax, Unemployment, Health, State Fiscal Relief, and Other Provisions), which does not include this
transparency requirement. Although the IRS received its funding for the Health Coverage Tax Credit under
Division A, this tax provision is covered under Division B and therefore the recipient reporting requirement does not
apply.
12
   Congress annually considers appropriations measures, which provide funding for general Government operations.
Under 31 United States Code Section 1301(a), public funds may only be used for purpose(s) for which Congress
appropriated the funds.
                                                                                                             Page 3
                     Additional Actions Are Needed to Ensure Readiness to
                            Comply With the American Recovery and
                     Reinvestment Act of 2009 Procurement Requirements



The Office of Procurement took some initial steps to prepare for Recovery Act procurements,
including coordinating with the Department of the Treasury on the Department’s requirements
and designating *******3(d)***** to oversee the IRS’ implementation of the Recovery Act
requirements. However, additional preparation was needed to ensure the IRS was ready to
comply with the Recovery Act procurement requirements.

Initial actions to prepare for Recovery Act procurements were not sufficient
Although IRS senior management reacted quickly to implement the Recovery Act tax provisions,
they did not provide sufficient oversight to ensure the IRS was adequately preparing for the new
procurement requirements. The *****3(d)***************** ensured the IRS business units
conducted risk assessments required by OMB implementing guidance; however, the risk
assessments did not adequately assess procurement risks, and the Office of Procurement did not
conduct a separate risk assessment of its own. Further, IRS management did not ensure program
office and procurement staff were sufficiently trained and prepared to properly plan, award, and
report Recovery Act procurements.
One of the reasons for the insufficient oversight may have been the nature of the procurements
needed for the Recovery Act. These procurements were related to the normal filing season
updates, and the IRS had existing contracts in place for these updates, including those needed for
the Recovery Act tax provisions. As a result, except for some additional tracking and reporting
necessary to meet the accountability and transparency requirements of the Recovery Act, the
Office of Procurement did not see any significant difference in processing procurements for the
Recovery Act. However, the IRS did not sufficiently prepare for the following new requirements
for Recovery Act procurements:
       •   Recovery Act funds must be kept separate from other funds.
       •   The Department of the Treasury requires that all Recovery Act procurements be
           preapproved by the Department.
In addition, IRS management did not perform an adequate review of the June 2009 OMB
implementing guidance to gain a full understanding of the requirement for contract recipients to
report on Recovery.gov. 13 There was initial confusion on this requirement because the
expectation was that all recipients of Recovery Act funds would be held to this requirement, yet
the June 2009 guidance that listed the specific Government agencies and programs that were
required to comply did not include IRS programs on the list. The IRS Office of Procurement
initially thought that this requirement would apply to IRS contractors as it did to other
Federal Government contractors receiving Recovery Act funding. When IRS contractors
questioned this reporting requirement, IRS management sought clarification in September 2009
from the OMB, which agreed that IRS contractors would not be subject to this requirement.

13
     See Appendix VI for the Recovery Act contract recipient reporting requirements.
                                                                                           Page 4
                  Additional Actions Are Needed to Ensure Readiness to
                         Comply With the American Recovery and
                  Reinvestment Act of 2009 Procurement Requirements



Another concern was that the IRS decided not to use Recovery Act funds for 6 of the 10 planned
Recovery Act procurements we reviewed where the procurements were awarded before
Recovery Act funds were available. The following procurements were not converted to
Recovery Act funds:
     •   One procurement valued at $210,000.
     •   Four procurements were consolidated into one procurement valued at $165,000.
     •   One procurement valued at $10,421.
The IRS advised us that the labor-intensive administrative burden outweighed the benefits of
using Recovery Act funds and that it decided not to modify the procurements to bring them into
compliance with the Recovery Act procurement requirements. However, this meant that the
$385,421 for these 6 procurements was not available for other IRS mission-critical needs, such
as improving taxpayer service or addressing the tax gap. IRS management advised us that
because this was a small portion of the overall IRS budget, they did not believe it was necessary
to convert these six procurements to Recovery Act funds.

Aspects of initial procurements were noncompliant
To evaluate whether the IRS was taking the necessary actions to prepare for the new
requirements of the Recovery Act, we selected a judgmental sample 14 of 9 of the
32 Recovery Act procurements as of August 20, 2009. We also selected 1 procurement from the
34 Recovery Act procurements as of June 19, 2009, for a total sample of 10 procurements. We
reviewed the procurement files and interviewed the procurement and program office staff
involved in the procurements to determine whether they were aware of and understood the new
procurement requirements. At the time of our interviews in September and October 2009, the
program office and procurement staff indicated they were either aware of the Recovery Act
requirements, or would ask the ****3(d)*********************** if they had any questions.
However, two of our sampled procurements that were awarded before these interviews were held
had some noncompliance issues, indicating there was still some confusion during the months
after the Recovery Act took effect. Specifically, we found that:
     •   Annual appropriated funds were commingled with Recovery Act funds.
     •   Department of the Treasury approval to use Recovery Act funds was not obtained.
     •   Required Recovery Act language was not included in contract award documents.

14
  To ensure that procurements in various stages of the procurement process would be included, we selected a
judgmental sample of nine procurements from the IRS’ Recovery Act Procurement Plan for August 20, 2009. In
addition, we selected one procurement that was listed as awarded on the IRS Procurement Plan dated June 19, 2009,
and dropped from the August 20, 2009, plan. See Appendix I for additional information on our sampling
methodology.
                                                                                                         Page 5
                  Additional Actions Are Needed to Ensure Readiness to
                         Comply With the American Recovery and
                  Reinvestment Act of 2009 Procurement Requirements



In 2 instances, Recovery Act-related procurements valued at a combined $2 million were initially
awarded prior to the Recovery Act funds being available. Once the funds became available, the
IRS attempted to use one modification for each procurement (one in May 2009 and the second in
June 2009) to deobligate 15 the annual appropriated funds and obligate the Recovery Act funds.
However, this resulted in the IRS commingling 16 Recovery Act funds for both procurements,
which is prohibited by the Act. The Office of Procurement was not aware at the time that the
deobligation of the annual appropriated funds and obligation of the Recovery Act funds in the
same transaction was considered a commingling of funds. 17 To comply with the Recovery Act,
the IRS should have handled all Recovery Act funding transactions as separate transactions on
separate modifications. The IRS issued separate modifications in June and July 2009 to include
the required Recovery Act clauses.
In addition, the Office of Procurement did not obtain the Department of the Treasury approval
prior to awarding one of the procurements. The Contracting Officer did not realize the
procurement was related to the Recovery Act. The IRS worked with the Department of the
Treasury on this procurement and has obtained “after-the-fact” approval for the procurement to
use Recovery Act funds.
We believe the noncompliance occurred because IRS management did not prepare written
procedures for this process. In addition, because the procurement process was not considered in
the risk assessments conducted during the initial implementation of the Recovery Act, the Office
of Procurement was not initially aware of the need for new procedures.

Written procedures have not been developed and formal training has not been
provided
As of February 2010, except for some informal guidance on the proper use of accounting codes
for Recovery Act funds, IRS management had not developed any written guidance to program
office or procurement staff regarding Recovery Act procurement requirements. Instead, the IRS
relied on formal and informal guidance provided by the OMB and the Department of the
Treasury. However, these documents provided general guidance and were not specific enough to
ensure IRS employees properly processed and awarded Recovery Act procurements.
The Office of Procurement assigned responsibility to ***3(d)******************to brief the
procurement staff responsible for Recovery Act procurements on the processes that should be


15
   Funds are considered “obligated” when there is a definite commitment by the Government to spend appropriated
funds. Deobligation occurs when the commitment ends and the funds are available to be spent.
16
   Recovery Act funds become commingled when they are mixed with annual appropriated funds. OMB guidance
required separate accounts and coding to ensure the funds were maintained, recorded, and reported separately.
17
   The IRS indicated that it can track and report the use of Recovery Act funds for these projects within its own
financial and procurement systems and thought this was sufficient for meeting the Recovery Act requirement of
keeping the funds separate.
                                                                                                          Page 6
                   Additional Actions Are Needed to Ensure Readiness to
                          Comply With the American Recovery and
                   Reinvestment Act of 2009 Procurement Requirements



followed. ****3(d)************* also disseminated the guidance issued by the OMB and the
Department of the Treasury. The IRS stated that it was using the Recovery Accountability and
Transparency Board’s 18 checklist for awarding Recovery Act procurements. This checklist was
issued in June 2009 and was designed to assist procurement personnel in ensuring the Recovery
Act procurement requirements were followed. However, since it was designed for general use
by Federal Government agencies, it did not contain specific instructions for ensuring Recovery
Act funds would be recorded separately.
During our fieldwork, IRS management stated that they did not want to issue any written
guidance until the Department of the Treasury issued an updated Acquisition Bulletin. After our
fieldwork ended in February 2010, the IRS Office of Procurement provided us with the
Department of the Treasury draft Acquisition Bulletin, which was intended to incorporate the
informal guidance issued up to that date. The IRS Office of Procurement further stated that it
would issue written guidance for awarding Recovery Act procurements once the draft
Acquisition Bulletin is finalized. We did not review the draft Acquisition Bulletin because it was
received after we completed our fieldwork and cannot comment on whether it will address the
issues we identified.
Without written procedures and training for employees involved in Recovery Act procurements,
IRS management cannot ensure that future procurements will be in compliance with the
Recovery Act and other implementing guidance.

Insufficient resources were assigned to track and report procurements
In November 2009, we expressed concerns to the IRS Senior Accountable Official and the
Director of Procurement related to insufficient resources allocated to the oversight of Recovery
Act procurements. Specifically, ****3(d)*******assigned a new collateral duty 19 of providing
oversight to Recovery Act procurements. For this new responsibility, in addition to the primary
task of ensuring procurement personnel understood the Recovery Act procurement requirements,
****3(d)********:
     •   Briefed the IRS Senior Accountable Official and the Director of Procurement whenever
         issues arose that required their attention.
     •   Compiled information weekly to track the dollar amount and use of Recovery Act funds,
         which were subsequently reported to the Department of the Treasury.


18
   The Recovery Accountability and Transparency Board was created by the Recovery Act to provide transparency
in relation to the use of Recovery Act-related funds and to prevent and detect fraud, waste, and mismanagement.
The Board is comprised of a Chairperson and 12 Inspectors General from various Federal agencies. The Board
issues quarterly and annual reports to the President and Congress.
19
   Collateral duties are official duties and responsibilities assigned to an employee in addition to the primary duties
of the employee’s position.
                                                                                                                Page 7
                     Additional Actions Are Needed to Ensure Readiness to
                            Comply With the American Recovery and
                     Reinvestment Act of 2009 Procurement Requirements



       •   Obtained Department of the Treasury approvals for IRS Recovery Act planned
           procurements.
       •   Disseminated guidance from the OMB and the Department of the Treasury procurement
           staff.
       •   Addressed questions from staff and external stakeholders. 20
       •   Provided informal training sessions to procurement staff regarding OMB implementing
           guidance.
Although ****3(d)*******************was working proactively to implement Recovery Act
procurement requirements, the oversight needed to stay current with these additional duties required
more time than what was feasible as a collateral duty assignment. In addition, because procurement
personnel did not always notify ******3(d)****************************** of all planned
Recovery Act procurements, one of the sampled procurements was not properly tracked.
Another concern was the lack of a backup to *****3(d)*************************. The IRS
assigned an additional employee in late October 2009 to assist ******3(d)**************
However, we do not know whether this will address the IRS’ need for additional resources to
provide effective oversight. The Office of Procurement may still be at risk of having insufficient
resources for this critical responsibility, particularly considering the lack of written procedures.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should strengthen controls in the following areas:
       •   Once the Department of the Treasury issues the revised Acquisition Bulletin, the IRS
           should develop and implement written procedures for IRS employees involved in the
           Recovery Act procurement process, including procedures to prevent commingling of
           funds, to ensure future procurements are processed in compliance with Recovery Act
           requirements and implementing guidance.
       •   Provide training to both program office and procurement personnel on the new IRS
           Recovery Act procurement procedures.
       •   Reevaluate the resources assigned to tracking and reporting IRS Recovery Act
           procurements to ensure adequate coverage and backup.
           Management’s Response: The IRS agreed with this recommendation. The Office of
           Procurement has added additional staff to provide adequate coverage and backup, and



20
     External stakeholders may consist of anyone outside of the IRS.
                                                                                             Page 8
                 Additional Actions Are Needed to Ensure Readiness to
                        Comply With the American Recovery and
                 Reinvestment Act of 2009 Procurement Requirements



        will periodically assess staffing assignments to ensure continued coverage for Recovery
        Act requirements. The Office of Procurement also plans to take the following actions:
            •   Issue a memorandum to outline IRS and Department of the Treasury processes
                once the revised Acquisition Bulletin has been issued by the Department of the
                Treasury.
            •   Once the memorandum is issued, the Office of Procurement Policy will meet with
                each of the operating divisions, as well as program office personnel, to discuss the
                policy and address questions regarding its implementation. One-on-one training
                will continue to be available for all acquisition personnel with Recovery Act
                requirements.

Use of Recovery Act Funds Are Reported to the Department of the
Treasury
The IRS reports weekly to the Department of the Treasury the status of how the $203 million in
Recovery Act funds is being obligated and spent by State. This includes the individual
procurements approved for Recovery Act funds and amounts spent on administrative costs. The
Department of the Treasury includes the IRS information when it posts Treasury-wide use of its
$7.8 billion in Recovery Act funds on Recovery.gov. Figure 1 shows the Department of the
Treasury’s reporting of Recovery Act funds paid out as of February 19, 2010. However,
Figure 1’s information does not enable the public to see how Recovery Act funds are used by
IRS contract recipients because they are not required to report this information on Recovery.gov.
         Figure 1: Department of the Treasury Recovery Act Funds Paid Out
Agency: Department of the Treasury
Report Date: 02/19/2010


                  Available Amount                                         Paid Out Amount

                  $7,810,803,589                                            $2,983,249,383
Source: Recovery.gov for the Department of the Treasury. Data were obtained from Federal Agency Financial and
Activity Reports.




                                                                                                     Page 9
                   Additional Actions Are Needed to Ensure Readiness to
                          Comply With the American Recovery and
                   Reinvestment Act of 2009 Procurement Requirements



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine the IRS’ readiness to implement the requirements of the
Recovery Act 1 in planning, awarding, and reporting Recovery Act-funded procurements. To
accomplish this objective, we:
I.       Reviewed the guidance that has been issued for planning, awarding, and reporting
         procurements using Recovery Act funds.
         A. Obtained and reviewed all guidance issued by the OMB 2 pertaining to procuring
            goods and services using Recovery Act funds.
         B. Obtained and reviewed all Department of the Treasury guidance pertaining to
            procuring goods and services using Recovery Act funds.
         C. Obtained and reviewed all guidance issued by the OMB pertaining to the recipient
            reporting of Recovery Act funds by prime and subcontractors.
         D. Obtained and reviewed the Recovery Act pertaining to procuring goods and services
            using Recovery Act funds.
         E. Obtained and reviewed the Treasury Inspector General for Tax Administration report
            issued on the 2009 Filing Season. 3
II.      Determined whether the IRS has policies, procedures, and controls in place to ensure it
         will be able to implement the Recovery Act requirements for planning, awarding, and
         reporting procurements made using Recovery Act funds.
         A. Interviewed procurement personnel as to the internal policies, processes, and
            procedures they are developing and using to plan, award, and report Recovery Act
            procurements to ensure they will meet the Recovery Act requirements.
         B. Interviewed procurement personnel to determine how they will ensure that Recovery
            Act requirements and updates are distributed to IRS program office personnel
            involved with the Recovery Act procurements.

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  The OMB has the primary responsibility for developing Government-wide rules and procedures to ensure that
funds are awarded and distributed in a prompt and fair manner; uses of funds are transparent to the public; and steps
are taken to mitigate fraud, waste, and abuse.
3
  The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the Passage of New Tax
Legislation (Reference Number 2009-40-142, dated September 21, 2009).
                                                                                                              Page 10
                  Additional Actions Are Needed to Ensure Readiness to
                         Comply With the American Recovery and
                  Reinvestment Act of 2009 Procurement Requirements



        C. Obtained the Recovery Act Funding Notification Report dated August 21, 2009, and
           the IRS Procurement Plan dated August 20, 2009, which contained 32 planned and
           awarded procurements. We obtained the IRS Procurement Plan dated June 19, 2009,
           that we used for our planning. This list contained 34 planned and awarded
           procurements.
        D. Selected a judgmental sample of 9 procurements from the August 20, 2009, list of
           32 procurements and 1 procurement from the June 19, 2009, list of 34 procurements
           for a total of 10 procurements, 4 and interviewed the procurement and business unit
           personnel involved with those procurements, including Contracting Officers and the
           requestors, to ascertain: their understanding of the Recovery Act requirements and
           internal procedures; how they ensured the requirements were met; and what, if any,
           corrective actions have been taken. We also interviewed IRS personnel regarding the
           interpretation from the Office of Federal Procurement Policy on recipient reporting.
        E. Interviewed the IRS Recovery Act Senior Accountable Official 5 and the Director,
           Office of Procurement, on their roles in regards to Recovery Act procurements.
        F. Followed up with the Department of the Treasury in regards to written procedures
           issued to the bureaus.
        G. Obtained the IRS February 19, 2010, Recovery Act Financial Activity Report to
           determine the amount of Recovery Act funds paid out for IRS procurements. We also
           obtained the Department of the Treasury Recovery Act Funds Paid Out that was
           posted to Recovery.gov 6 as of February 19, 2010.
        H. Summarized the IRS’ readiness to implement the Recovery Act reporting
           requirements based on interviews with procurement and business unit personnel and
           reviews of documentation provided for the requirements that were not met.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: policies, procedures, and practices for

4
  We selected a judgmental sample of procurements because we did not intend to project the results across the
population and we wanted to ensure that procurements in all stages of the award process were included in our
review.
5
  The Recovery Act Senior Accountable Official is the individual with responsibility and authority to coordinate
across agency bureaus, program offices, and programs.
6
  The Recovery Act required the creation of a web site to report data related to Recovery Act spending.
Recovery.gov was established as the United States Government’s official Recovery Act web site.
                                                                                                           Page 11
              Additional Actions Are Needed to Ensure Readiness to
                     Comply With the American Recovery and
              Reinvestment Act of 2009 Procurement Requirements



planning, awarding, and reporting Recovery Act funded procurements issued by the program
offices within the Modernization and Information Technology Services organization, the
Wage and Investment Division, and the Office of Procurement. We evaluated these controls by
interviewing program office and procurement personnel and reviewing contract files.




                                                                                     Page 12
              Additional Actions Are Needed to Ensure Readiness to
                     Comply With the American Recovery and
              Reinvestment Act of 2009 Procurement Requirements



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Michelle Philpott, Acting Director
Darryl Roth, Audit Manager
M. Rita Woody, Audit Manager
Julia Moore, Acting Audit Manager
Terrey A. Haley, Lead Auditor
James S. Mills, Jr., Senior Auditor
Evan A. Close, Audit Evaluator




                                                                                  Page 13
              Additional Actions Are Needed to Ensure Readiness to
                     Comply With the American Recovery and
              Reinvestment Act of 2009 Procurement Requirements



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Chief Technology Officer OS:CTO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Procurement OS:A:P




                                                                        Page 14
                     Additional Actions Are Needed to Ensure Readiness to
                            Comply With the American Recovery and
                     Reinvestment Act of 2009 Procurement Requirements



                                                                                   Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Actual; $385,421 in annual appropriated funds (see page 3).

Methodology Used to Measure the Reported Benefit:
The IRS decided not to use Recovery Act 1 funds for 6 of the 10 procurements we reviewed
where the procurements were awarded before Recovery Act funds were available. The following
procurements were not converted to Recovery Act funds:
       •   One procurement valued at $210,000.
       •   Four procurements were consolidated into one procurement valued at $165,000.
       •   One procurement valued at $10,421.
The IRS advised us that the labor-intensive administrative burden outweighed the benefits of
using Recovery Act funds and that it decided not to modify the procurements to bring them into
compliance with the Recovery Act procurement requirements. However, this meant that the
$385,421 for these 6 procurements was not available for other IRS mission-critical needs, such
as improving taxpayer service or addressing the tax gap.




1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                           Page 15
                   Additional Actions Are Needed to Ensure Readiness to
                          Comply With the American Recovery and
                   Reinvestment Act of 2009 Procurement Requirements



                                                                                                   Appendix V

          Recovery Act Contract Award Requirements

For Recovery Act 1 contract awards, agencies must: 2
    •    To the maximum extent practicable, award contracts using Recovery Act funds as
         fixed-price contracts (see Federal Acquisition Regulation (FAR) 3 Subpart 16.2) using
         competitive procedures.
    •    Provide maximum practicable opportunities for small businesses to compete for agency
         contracts and to participate as subcontractors in contracts awarded by agencies.
    •    Publish presolicitation and award notices of orders under task and delivery order
         contracts on the FedBizOpps system, 4 in addition to the FAR Part 5 requirements for
         presolicitation and award notices.
    •    Include special formatting for presolicitation and award notices in the FedBizOpps
         system and award reporting in the Federal Procurement Data System (FPDS) 5 to
         distinguish Recovery Act actions.
         o All presolicitation notices and award announcements must include the word
           “Recovery” as the first word in the Title field in the FedBizOpps system, preceding
           the actual title.
         o Presolicitation notices for delivery and task orders must also include the following
           statement in the Description field, preceding the actual description:
             THIS NOTICE IS PROVIDED FOR INFORMATION PURPOSES ONLY. THIS
             OPPORTUNITY IS AVAILABLE ONLY TO CONTRACTORS UNDER
             (contracting officer insert program name).

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  The source of all requirements listed is the OMB Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, dated February 18, 2009. The last requirement listed is defined in Section 4 of the
Guidance. All other requirements listed are defined in Section 6.
3
  48 C.F.R. ch. 1 (2009). The FAR is established for the codification and publication of uniform policies and
procedures for acquisitions by all Executive Branch agencies.
4
  The FedBizOpps system is a single Government-wide point of entry for Federal Government procurement
opportunities exceeding $25,000. Government buyers are able to publicize their business opportunities by posting
information directly to the FedBizOpps system via the Internet. Through this system, commercial vendors seeking
Federal markets for their products and services can search, monitor, and retrieve opportunities solicited by the entire
Federal contracting community.
5
  The FPDS provides a comprehensive web-based tool for agencies to report contract actions.
                                                                                                             Page 16
                  Additional Actions Are Needed to Ensure Readiness to
                         Comply With the American Recovery and
                  Reinvestment Act of 2009 Procurement Requirements



        o When entering data in the FPDS on any action (including modifications) funded by
          the Recovery Act, agencies must enter the Treasury Account Symbol in the
          Description of Requirement field.
    •   Include terms and conditions in contract documents necessary for effective
        implementation of Recovery Act data collection and accountability requirements.
    •   Provide a summary of the contract or order (or modification to an existing contract or
        order), including a description of the required products and services, which will be made
        available publicly and linked to the Recovery.gov 6 web site for each Government contract
        or order (or modification to an existing contract or order) exceeding $500,000.
    •   Post a summary of any contract or order (or modification to an existing contract or order),
        including a description of the required products and services, in a special section of the
        Recovery.gov web site, unless the contract or order is both fixed-price and competitively
        awarded.
    •   Place special emphasis on responsibility determinations and preaward surveys. The
        award of a contract based solely on lowest evaluated price can produce a false economy,
        increasing performance, cost, and schedule risk. FAR Subpart 9.103 states that a
        prospective contractor must affirmatively demonstrate its responsibility, including, when
        necessary, the responsibility of its proposed subcontractors.
    •   Use authorized acquisition flexibilities as appropriate to avoid unnecessary delays in
        awarding contracts with Recovery Act funds.
    •   Provide for appropriate oversight of contracts to ensure outcomes that are consistent with
        and measurable against agency plans and goals under the Recovery Act. It is critical that
        agencies evaluate their workforce needs so that they are able to appoint qualified
        Contracting Officers, Contracting Officer Technical Representatives, and Program
        Managers with certification levels appropriate to the complexity of Recovery Act
        projects.
    • Do not commingle Recovery Act funds with other funds in apportionment requests they
      prepare for the OMB. Agencies must separately track apportionments, allotments,
      obligations, and expenditures related to Recovery Act funding. In some cases, agencies
      may need to use Recovery Act funds in conjunction with other funds to complete
      projects. They may do so, but must separately track and report the use of Recovery Act
      funds for these projects.



6
 The Recovery Act required the creation of a web site to report data related to Recovery Act spending.
Recovery.gov was established as the United States Government’s official Recovery Act web site.
                                                                                                         Page 17
                  Additional Actions Are Needed to Ensure Readiness to
                         Comply With the American Recovery and
                  Reinvestment Act of 2009 Procurement Requirements



                                                                                               Appendix VI

     Recovery Act Recipient Reporting Requirements

The Recovery Act 1 included requirements for some recipients of Recovery Act funds to report
on the use of those funds on the Recovey.gov 2 web site to show the public how the funds are
being spent. The IRS’ recipients are not required to report on Recovery.gov because the
June 2009 OMB guidance states that the recipient reporting requirement does not apply to
recipients receiving funds through entitlements or tax programs to individuals, which would
include the IRS. We are providing this information to inform readers of the type of information
that will not be publicly posted on Recovery.gov for the $31.9 million paid out as of
February 19, 2010, in IRS Recovery Act procurements.
The recipient reports are required to include the following detailed information no later than the
tenth day after the end of each calendar quarter:
    •   Total amount of funds received and, of that, the amount spent on projects and activities.
    •   A list of those projects and activities funded by name, to include:
        o Description of the project or activity.
        o Evaluation of the completion status of the project or activity.
        o Estimates on jobs created or retained.
    •   Details on subawards and other payments.
    •   Names and total compensation of each of the five most highly compensated officers of
        the contractor for the calendar year in which the contract is awarded.




1
 Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
 The Recovery Act required the creation of a web site to report data related to Recovery Act spending.
Recovery.gov was established as the United States Government’s official Recovery Act web site.
                                                                                                         Page 18
   Additional Actions Are Needed to Ensure Readiness to
          Comply With the American Recovery and
   Reinvestment Act of 2009 Procurement Requirements



                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 19
Additional Actions Are Needed to Ensure Readiness to
       Comply With the American Recovery and
Reinvestment Act of 2009 Procurement Requirements




                                                       Page 20
Additional Actions Are Needed to Ensure Readiness to
       Comply With the American Recovery and
Reinvestment Act of 2009 Procurement Requirements




                                                       Page 21
